\

i q3)

;•

FILED
APR 2 0 2021

IN THE SUPREME COURT OF THE UNITED STATES

P^gFJHECLERK

THOMAS LAM,
Petitioner,
Versus
ROBERT C. TANNER, Warden,
B.B. Rayburn Correctional Center,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE FIFTH CIRCUIT COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

Thomas: Lam #702286
Rayburn Correctional Center
27268 Hwy 21 N.
Angie, La 70426
(Pro-Se Litigant)

i

|
s.

QUESTIONS PRESENTED
The trial judge relied on a discussion with the jury, during voir dire as

l

satisfaction to a constitutional guilty plea that he informed Petitioner of the charges.
But the explanation was for second degree murder — not manslaughter as to the
charge he pled guilty.
Did the Fifth Circuit deny a request for COA on an important question of
federal law that has not been, but should be, settled by this Court because the trial
judge incorrectly explained the charge Petitioner did not plea to? Furthermore, the
explanation was directed to the jury — not Petitioner. In addition, did the court err
that jurists of reason could not debate that the Henderson1 presumption applies when
the Petitioner’s case is distinguishable from Henderson ?

J

(

i

Henderson v. Morgan, 426 U.S. 637, 96 S.Ct. 2253, 49 L.Ed.2d 108 (1976).
ll

■i

TABLE OF CONTENTS
n

Questions Presented
Table of Contents

in

Index to Appendix

in

Table of Authorities Cited

IV

Opinions Below

1

Jurisdiction

2

Constitutional and Statutory Provisions Involved

2

Statement of the Case

4

Reason for Granting this Petition

6
7

I. Invalid Guilty Plea
)

13

II. Ineffective Assistance of Counsel

14

Conclusion
APPENDIX
“A”

Decision of the Orleans Parish Criminal District Court dated October 20, 2017.

“B”

Fourth Circuit Court of Appeals Ruling on Supervisory Writ on 12/13/17.

“C”

Louisiana Supreme Court’s Ruling on Certiorari
State v. Lam, 2018-0108 (La. 2/11/19); 263 So.3d 416.

“D”

Magistrate’s Report and Recommendation
Lam v. Tanner, 19-1785, 2020 WL 823413 (E.D. La. 1/27/20).

“E”

United States Eastern District Court of Louisiana’s Ruling,
Lam v. Tanner, 19-1785, 2020 WL 815588 (E.D. La. 2/19/20).

«F”

Fifth Circuit Court of Appeals denial of COA on 3/11/21. Case No.: 20-30145.

iii

TABLE OF AUTHORITIES CITED
PAGE

CASE

'

.............4, 5,7
Boykin v. Alabama, 395 U.S. 238 (1969)....
ii, iv, 5, 6, 7, 8
Henderson v. Morgan, 426 U.S. 637 (1976)
............ 7, 8,9
Bradshaw v. Stumpf, 545 U.S. 175 (2005)..
Smith v. Warden Allen Correctional Center, 2000 U.S. App. LEXIS 40917
.... 4, 11
(5th Cir. 2000).....................................................
;.... iv, 5
Strickland v. Washington,466 U.S. 668 (1984)
..... iv, 5
Hill v. Lockhart, 474 U.S. 52 (1985)................
STATUTES
28 U.S.C. § 1257(a)

2

28 U.S.C. § 1254(1)

2

28 U.S.C. § 2253....

2

28 U.S.C. § 2254....

5

28 U.S.C. § 1746 ...

15

iv

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
•'. v

The Petitioner, Thomas Lam, respectfully prays that this Court issue a Writ of
Certiorari to review the judgment of the Court of Appeals for the Fifth Circuit of
Louisiana for the denial of his COA.
OPINIONS BELOW
i.

The Fifth Circuit Court of Appeals denied Petitioner’s request to issue a

certificate of appealability in order to appeal the district court’s denial of habeas
corpus relief. The opinion is unpublished, and is reprinted at Appendix “F.”
The opinion of the United States Eastern District Court of Louisiana appears
at Appendix “E” to this petition and is reported at Lam v. Tanner, 19-1785, 2020
WL 815588 (E.D. La. 2020). The opinion of the highest state court to review the
merits, appears at Appendix “C” to the petition and is reported at State v. Lam,
2018-0108 (La. 2/11/19); 263 So.3d 416. The opinion of the Fourth Circuit Court of
Appeals appears at Appendix “B” to the petition and is unpublished.

1

JURISDICTION
The United States Court of Appeals decided Petitioner’s case on March 11,
2021. No petition for rehearing was filed in Petitioner’s case. The Louisiana Supreme
Court decided Petitioner’s case on February 11, 2019. A copy of that decision appears
at Appendix “C”.
The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1) and 28
v.-

U.S.C. §1257(a).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The following statutory and constitutional provisions are involved in this case.
U.S. Const., Amend. VI
In all criminal prosecutions, the accused shall. . . have the Assistance of Counsel for
his defense.
U.S. Const., Amend. XIV
Section 1. All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein they
reside. No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person of
life, liberty, or property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
28 U.S.C. § 2253
(a) In a habeas corpus proceeding . . . before a district judge, the final order shall be
subject to review, on appeal, by the court of appeals for the circuit in which the

2

proceedings is held.
(b) There shall be no right of appeal from a final order in proceeding to test the
validity of a warrant to remove to another district or place for commitment or trial a
person charged with a criminal offense against the United States, or to test the
rS

validity of such person’s detention pending removal proceedings.
(c)(1) Unless a circuit justice or judge issues a certificate of appealability, an appeal
may not be taken to the court of appeals from (A) the final order in a habeas corpus proceeding in which the detention
complained of arises out of process issued by a State court;
(2) A certificate of appealability may issue under paragraph (1) only if the applicant
has made a substantial showing of the denial of a constitutional right.
»•

(3) The certificate of appealability under paragraph (1) shall indicate which specific
issue or issues satisfy the showing required by paragraph (2).

«l

t.

t.

3

i-

STATEMENT OF THE CASE
On January 9, 2014, the grand jury indicted Petitioner with one count of
Second Degree Murder relative to R:S. 14:31; two counts of Attempted Second Degree
Murder, relative to R.S. 14 (27) 30.1; one count of Armed Robbery with a Firearm,
relative to R.S. 14:64.3; one count of Possession of Alprazolam, relative to R.S. 40:969
;

’

(C); one count of Possession of Hydrocodone relative to R.S. 40:967; one count of
Possession of Oxycodone, relative to R.S. 14:967(C)(2); and one count of Possession of
Morphine, relative to R.S. 40:967(C)(2).
Prior to Petitioner pleading guilty, the State dismissed the Possession of
Hydrocodone relative to R.S. 40:967 and reduced Second Degree Murder to
Manslaughter. In exchange for his guilty plea of all pending charges, Petitioner
received an agreed upon sentence of forty-five (45) years, without the benefit of
parole, probation, or suspension of sentence.
Petitioner filed a timely application for post-conviction relief into the state trial
1.

court and the following claims were reserved for federal court:
1. Violation of Petitioner’s right to due process of law when he pled guilty without
being informed of the nature of the charges and its critical elements by the
trial court or counsel.
2. Violation of Petitioner’s right to effective assistance of counsel when trial
counsel advised Petitioner to plead guilty without notifying him of the true
nature of the offenses and its required elements.

4

3. Violation of Petitioner’s right to effective assistance of counsel when trial
counsel failed to notify him of relevant facts that prove his innocence. Counsel
also failed to comply with his request, and chose to maliciously withhold
evidence with the intent to coerce the guilty plea.
The trial court denied claim one mentioned above based on the standards
under Boykin v. Alabama, 395 U.S. 238 (1969). On claim two, the trial court only
indicated the standard of Hill v. Lockhart, 474 U.S. 52 (1985), but did not address the
merits of the claim and then states that Petitioner has not shown that but for
counsel’s alleged errors, he would not have pled guilty. Claim three, the trial court
denied based on Petitioner not proving the two Strickland prongs. The Fourth Circuit
Court of Appeals and the Supreme Court affirmed the trial court’s judgment.
On February 21, 2019, Petitioner filed his petition for habeas corpus relief
under 28 U.S.C. § 2254. He also filed a motion for evidentiary hearing, motion to stay
and production of documents. The habeas corpus petition included three grounds for
relief, which were presented above. On January 27, 2020, the magistrate judge for
the United States Eastern District Court recommended that Petitioner’s habeas
corpus be denied as he failed to satisfy the prejudice prong of Strickland in regards
to ineffective assistance of counsel.

On the claim of invalid guilty plea, it was

recommended that it be denied because Petitioner did not satisfy the rebuttable
presumption established in Henderson. In effect, the district court judge has adopted
the magistrate’s recommendation and denied Petitioner relief, and also denied him

5

of certificate of appealability.
Petitioner filed a notice of appeal into the district court along with an in forma
pauperis. After allowing Petitioner to proceed with his pauperis status, he filed a
certificate of appealability into the United States Court of Appeals for the Fifth
.<r

■i

Circuit of Louisiana on March 10, 2020. On March 11, 2021, the Fifth Circuit denied
request for a certificate of appealability. Petitioner is filing a Petition for Writ of
Certiorari into this Honorable Court seeking for a COA in the Fifth Circuit in order
for the claims to be reviewed on the merits.
REASON FOR GRANTING THIS PETITION
;

The trial judge relied on a discussion with the jury, during voir dire as

satisfaction to a constitutional guilty plea that he informed Petitioner of the charges.
But the explanation was for second degree murder - not manslaughter as to the
charge he plead guilty. Petitioner has shown that his case is distinguishable from
i'.

Henderson and that he clearly rebuts the routine explanation espoused in Henderson
simply because the court explained elements to the charge of second degree murder
that he did not pled guilty. Therefore, the Fifth Circuit’s denial of COA should be
reversed as Petitioner has shown by clear and convincing evidence that the state
courts’ findings were incorrect, and reasonable jurists could have debated the court’s
conclusion, and that the issues are adequate to deserve encouragement to proceed
further.

6

l:

I. Invalid Guilty Plea
The state courts’ denied this claim in the context of Boykin v. Alabama,
395 U.S. 238 (1969).

But this Court has discussed this particular issue in

Henderson v. Morgan, 426 U.S. 637 (1976), and Bradshaw v. Stumpf, 545 U.S. 175
(2005).2 Henderson deals with a defendant not being inform of the charges by the
trial judge or counsel; even without such express representation by counsel, it is
appropriate to presume that in most cases counsel explained the charges to the
defendant. Bradshaw deals with a defendant not being inform of the charges by the
trial judge, but a guilty plea can be satisfied when counsel verified on the record that
he explained the charges to the defendant.
The district court found that Henderson’s presumption applies to Petitioner’s
case and that he did not adequately rebut the presumption. The court’s findings,
however, misalign with the record in Petitioner’s case. As the court noted, “there are
aspects of the instant case that give the court pause, such as: (1) the judge did not
advise petitioner of the elements of the offenses on the record during the [plea]
colloquy; (2) the elements of the offenses were not set forth on the guilty plea form;
and (3) petitioner’s attorneys did not affirmatively state on the record or acknowledge
•;

on the guilty plea form that they had advised petitioner of the elements of the
offenses.”3

2 See Appendix A, Trial Court’s ruling dated October 20, 2017, p. 3 (B).
3 See Appendix D, Magistrate’s Report and Recommendation page 17.

7

Henderson’s presumption speaks to the record when there is no explanation or
representation by defense counsel that the nature of the offense has been explained
to the accused.

Henderson’s presumption cannot be applied to Petitioner’s case

because the record, particularly the trial transcripts, reflect that on August 11, 2015,
•.'■V"

.

the first day of trial, the trial court and counsel advised the jury of the elements of
second degree murder. But during the taking of Petitioner’s plea after the state
reduced the charges on the second day of trial, the trial court never mentioned or
advised Petitioner of the elements of manslaughter. Further, Lam’s counsel did not
affirmatively state that he advised Lam of the elements of manslaughter. Unlike
most cases, where the court applies Henderson’s presumption that defense counsel
tr

routinely explains the nature and the elements of the charge, Petitioner’s case is
distinguishable from most cases. The record in Lam’s case clearly rebuts the routine
explanation espoused in Henderson simply because the court explained elements to
the charge of second degree murder that Petitioner did not pled guilty.
More so, under the standard of review in Bradshaw, supra, which held that “...
the constitutional prerequisites of a valid plea may be satisfied where the record
accurately reflects that the nature of the charge and the elements of the crime were
explained to the defendant by his own competent counsel. Henderson v. Morgan,
supra at 647, 96 S.Ct. 2253 (granting relief to a defendant unaware of the elements
of his crime, but distinguishing that case from others where “the record contains
either an explanation of the charge by the trial judge, or at least a representation by

8

defense counsel that the nature of the offense has been explained to the accused”).
In the instant case, Bradshaw’s prerequisites are lacking in the record of
Petitioner’s plea colloquy because, as the court correctly noted, “petitioner’s attorney
did not affirmatively state on the record or acknowledge on the guilty plea form that
they had advised petitioner of the elements of the offenses.”4 Petitioner’s record is
devoid of any explanation of the elements of manslaughter by the trial judge or by
counsel.
Additionally, the court conceded that there is one aspect of Petitioner’s case
that “remains troubling: the charging document was amended immediately prior to
the entry of the guilty pleas to reduce the charge of second degree murder to the lesser
included offense of manslaughter, and the record is unclear as to whether the
previous day’s discussion of the elements of the offenses included the
elements of the lesser included offenses.”5
The reason it is troubling and unclear is because the court refuse to compare
the trial transcripts of the previous day’s discussion of the elements of second degree
murder to the guilty plea transcripts of the reduced charge of manslaughter. The
V

troubling aspect of the record that the court referenced in finding that Petitioner “acknowledged that he was in fact aware of the charges and their elements and that
he had no questions” — occurred on the previous day’s discussion of the elements

4 Appendix D, Magistrate’s Report and Recommendation page 17.
5 Appendix D, Magistrate’s Report and Recommendation page 19. [emphasis added]

9

of second degree murder before the State reduced the charge of second
degree murder to the lesser included offense of manslaughter. For example,
i.
' rf

the court cited the trial transcripts which states:
; -

■' ••

••

'

BY THE COURT:
Do you understand everything that I have explained to you
regarding what you are pleading guilty to?

BY THE DEFENDANT:
Yes.

BY THE COURT:
And, you understand each of the elements of those crimes as you
heard us explain them to the jury yesterday ?

BY THE DEFENDANT:
Yes.
BY THE COURT:
Do you have any questions?
BY THE DEFENDANT:
No.
See Appendix D, Magistrate’s Report and Recommendation page 18.
•!

The above portion of the boykin colloquy evinces that the trial court explained

the elements of the crime to the jury yesterday. There were only two days of trial,
August 11 and August 12, 2015. Petitioner was standing trial for second degree
murder on the first day. It was on August 11, the first day, that the trial court
*

explained the elements of second degree murder to the jury during voir dire. On the
second day of trial, August 12, the State reduced the second degree murder to
10

manslaughter, and the trial court asked Petitioner did he understand each of the
elements of those crimes explained to the jury yesterday on August 11. Clearly the
i.

• trial court was referring to the explanation of the elements of second degree murder,
/ on August 11, and not the elements of manslaughter to which Petitioner pled guilty
to on August 12.
Had the court granted Petitioner’s request for production of the “(1) transcripts
of the trial proceedings which occurred prior to the entry of his guilty plea and (2) the
audio recording of the guilty plea,” Petitioner could have directed this Court to the
portion of the trial transcripts which reflect that Petitioner acknowledged that he was
i.
t7

in fact aware of the charges and the elements of second degree murder and not the
elements of the charge of manslaughter.
In turn, the trial court’s explanation of the elements of second degree murder
cannot translate into an explanation of the elements of manslaughter simply because
the elements of the two charges are distinguishable. Furthermore, the discussion
was directed towards the jury — not Petitioner.
c

Additionally, the court relied on Smith u. Warden Allen Correctional Center,

2000 U.S. App. LEXIS 40917 (5th Cir. 2000), to resolve the problem “as to whether
the previous day’s discussion of the elements of the offenses included the elements of
the lesser included offenses.”6 In Smith, the defendant was originally charged with
second degree murder but later pleaded guilty to the reduced charge of manslaughter.

See Appendix D, Magistrate’s Report and Recommendation page 19.
11

In his habeas petition, he argued “that he was never informed of the elements of
L

manslaughter and did not understand what those elements are, making his plea
>,.

constitutionally involuntary.”7 The Fifth Circuit noted that there was no plea form
in which defense counsel stated that they had informed Smith of the nature of the
crime to which he was pleading guilty, and the judge “never expressly discussed the
•>

■(

elements of manslaughter” during the plea colloquy.8 But, after noting that Smith
:«-r.

had excellent counsel and had been given the opportunity to discuss his case with
them, the Fifth Circuit then concluded that “[i]t would seem reasonable to assume
that his lawyers discussed his offense in detail with him before he agreed to plead
guilty.” Because Smith had not met his burden to prove otherwise, habeas corpus
relief was denied.9

i.

Nevertheless, Petitioner’s case is distinguishable from the Petitioner in Smith.

First, as discussed above, on the first day of trial, before the State reduced the charges
to manslaughter, the trial court discussed on the record the elements of second degree
murder to the jury and on the second day of trial, after the charges were reduced, the
trial court asked Petitioner did he understand each of the elements of those crimes
explained to the jury yesterday. Unlike Smith’s case, Petitioner’s record does contain
an explanation of the elements of the charge of second degree murder. But, second
degree murder is not the charge to which Petitioner pled guilty. Furthermore, as the

7 Id. at *1.
8 Id. at *2-3.
9 Id. at *3; See also Appendix D, Magistrate’s Report and Recommendation pages 20-21.
l

12

Court correctly noted, “petitioner’s attorney did not affirmatively state on the record
or acknowledge on the guilty plea form that they had advised petitioner of the
elements of the offenses.”10

Petitioner’s record is devoid of any explanation

whatsoever of the elements of manslaughter.
*
*■!

Petitioner has shown by clear and convincing evidence that the State courts’

findings were incorrect, and reasonable jurists could have debated the court’s
conclusion, and that the issues are adequate to deserve encouragement to proceed
further.

Therefore, the Fifth Circuit’s denial of COA must be reversed, and

Petitioner’s claim be reviewed on the merits.
II. Ineffective Assistance of Counsel
The Fifth Circuit denied Petitioner’s ineffective assistance of counsel claim
based on the fact that it relies on his involuntary plea argument and that he
consequently fails for lack of substantiation. This is inaccurate as Petitioner has
shown by clear and convincing evidence that the State court’s findings were incorrect,
and reasonable jurists could have debated the courts’ conclusion, and that the issues
are adequate to deserve encouragement to proceed further. Therefore, the Fifth
Circuit’s denial of COA must be reversed and Petitioner’s claims be reviewed on the
merits.
£.

10 See Appendix D, Magistrate’s Report and Recommendation page 17.

13

CONCLUSION
This petition for writ of certiorari should be granted to allow Petitioner
certificate of appealability in order to appeal the district court’s decision in the Fifth
Circuit Court of Appeals.
•f

Respectfully Submitted,

Thomas Lam

(laiull. <1,3021
Date
.*
•f

■!

i.

14

